No. ____________

IN THE

Supreme Court of the United States
—————
KEITH GRIFFIN,
Petitioner,
v.
STATE OF NEW YORK,
Respondent.
—————
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Pursuant to the provisions of Rule 39 of the Rules of this Court, petitioner
Keith Griffin moves to file the attached Petition for a Writ of Certiorari to the New
York Court of Appeals, without prepayment of costs and to proceed in forma pauperis.
The petitioner was granted poor person relief in the Fourth Department and
appointed counsel. Such assignment continued without an additional order
following petitioner’s appeal to the Court of Appeals. A copy of the assignment
order is appended.
Dated:

March 4, 2021
_____________________________________
ERIN A. KULESUS
Counsel of Record
THE LEGAL AID BUREAU OF BUFFALO, INC.
APPEALS AND POST-CONVICTION UNIT
290 Main Street, Suite 350
Buffalo, New York 14202
ekulesus@legalaidbuffalo.org
(716) 416-7468
Counsel for Petitioner

SUPREME COURT OF THE STATE OF NEW YORK

Apprllatt ltuhitnu, JJrnurtq 3Juhtrial lrpartmrut
KA 18-01620
THE PEOPLE OF THE STATE OF NEW YORK, RESPONDENT,
V
KEITH GRIFFIN, DEFENDANT-APPELLANT.
Inmate# 18-B-2285 EL MIRA CORRECTIONAL FACILITY
Indictment No: 2017-00192
An application having been made for an order granting leave to prosecute an
appeal from a judgment of the Erie County Court, rendered August 15, 2018, as a poor
person, and for other relief,
It is hereby ORDERED that said application is granted to the extent that the
appeal herein may be prosecuted upon one record as defined by 22 NYCRR 1000.3 (c)
(1) and ten copies of the appellant's brief, reproduced in accordance with 22 NYCRR
1000.4 (f), and
TIMOTHY P. MURPHY, ESQ.
LEGAL AID BUREAU OF BUFFALO
290 MAIN ST STE 350
BUFFALO NY 14202
is hereby assigned as counsel to conduct the appeal; and
It is further ORDERED that said record and briefs are to be filed and served
within 120 days of the filing of the transcripts with the Erie County Clerk's Office; and
It is further ORDERED that the Clerk of Erie County is hereby directed to provide
TIMOTHY P. MURPHY, ESQ. with copies of all papers and transcripts of stenographic
or audiotaped minutes, if any, of the proceedings upon which the appeal is based.

Entered: September 11, 2018

MARK

w. BENNETT, Clerk

$,Upreme Qtourt

APPELLATE DIVISION
Fourth Judicial Department
Clerk's Office, Rochester, N.Y.

}

L MARK W. BENNETT, Clerk of the Appellate Division of the Supreme
Court in the Fourth Judicial Department, do hereby certify that this is a true copy of
the original order, now on file in this office.

IN WITNESS WHEREOF, I have hereunto set my
hand and affzxed the seal ofsaid Court at the City
ofRochester, New York, this

SEP 1 3 2018

. Clerk

